Audit Report, GR-90-02-007 



Return
    to the USDOJ/OIG Home Page



Compliance with Standards Governing Combined DNA Index System Activities
Oregon State Police Forensic Services Division
Portland, Oregon
GR-90-02-007 
December, 2001 
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing 
Combined DNA Index System (CODIS) activities at the Oregon State Police Forensic Services Division  (Laboratory).  
CODIS is a national computerized information repository maintained by the FBI that permits the storing, maintaining, 
tracking, and searching of DNA specimen information in order to facilitate the exchange of DNA information by law 
enforcement agencies.  Laboratories that participate in CODIS perform DNA analysis on specimens from convicted 
offenders or crime-scene evidence.  These laboratories use special software, provided free of charge by the FBI, 
to organize and manage the DNA profiles and related information.  The software also compares DNA profiles from 
participating laboratories and notifies the appropriate laboratories when two or more DNA profiles match.
The DNA Identification Act of 1994 authorized CODIS and specified several standards for laboratories that contribute 
profiles to the FBI National DNA Index System (NDIS).  Each participating laboratory must certify that it is performing 
DNA analysis in compliance with the FBI standards governing laboratory operations.  Further, a Memorandum of 
Understanding (MOU) was enacted between the FBI and state laboratories establishing the responsibilities of each party 
as part of CODIS.  The MOU establishes general and specific standards that are to be followed by a laboratory in order 
to participate in CODIS and utilize NDIS, including the upload of DNA profiles to NDIS.
Our audit generally covered the period from August 1999 through August 2001.  The overall objective of the audit was 
to determine the extent of the Laboratory's compliance with standards governing Combined DNA Index System (CODIS) 
activities.  To address the overall objective, we considered:

the extent to which the Laboratory complied with the FBI NDIS participation requirements,

the extent to which the Laboratory complied with federally legislated Quality Assurance Standards (QAS) 
for laboratories, and 


the appropriateness of the Laboratory's DNA profiles contained in CODIS databases.


We found that the Laboratory generally complied with standards governing CODIS activities that we tested.  
However, our review of 200 DNA profiles from the CODIS databases disclosed that:  (1) one casework profile 
was not fully supported by the analyst's notes, (2) two casework profiles' loci readings were derived from 
evidence obtained from specimens not listed on the CODIS record, (3) eighteen casework profiles did not contain 
readings from all the loci tested and successfully analyzed by the lab and, (4) one convicted offender profile 
did not contain readings from all the loci tested and successfully analyzed by the lab.
The audit results are discussed in greater detail in the Findings and Recommendations section of the report.  
Appendix I discusses our audit scope and methodology.  Appendix II provides the audit criteria.  Appendix III 
contains general background information.  Appendix IV covers the history and status of DNA testing and CODIS use 
at the Laboratory.